IN THE
SUPREME COURT OF THE UNITED STATES

RUBEN SANCHEZ.
Petitioner
v.
"UNITED STATES OF AMERICA. ET AL”
Petition for Certiorari to the Court of Appeals for the Seventh Circuit
No. 19-1836

CERTIFICATE OF SERVICE
I hereby certify that I caused a copy of Ruben Sanchez' Petition for Certiorari to be served
by personal hand delivery on August 14, 2020:

Appeals Division
Federal Civil Rights Litigation
City of Chicago, Department of Law
121 North LaSalle Street, Suite 600
Chicago, Illinois 60602

Ruben Sancrfez, Pro Ssr

